                                                  U.S. Department of Justice

                                                   Rosa Emilia Rodríguez-Vélez
                                                   United States Attorney
                                                   District of Puerto Rico


                                                   Torre Chardón, Suite 1201       (787) 766-5656
                                                   350 Carlos Chardón Street
                                                   San Juan, Puerto Rico 00918



FOR IMMEDIATE RELEASE                              Contact:        U.S. Attorney’s Office
Date: August 21, 2013                                              Nedy Carrillo
                                                                   Victim/Witness Specialist
                                                                   (787) 282-1914; (787) 231-8060

            ARREST AND INDICTMENT OF SEVENTY-FIVE INDIVIDUALS FOR
                         SOCIAL SECURITY FRAUD

       SAN JUAN, P.R. - On August 16, 2013 a Federal Grand Jury in the District of Puerto
Rico returned 73 separate Indictments charging three doctors, Wildo Vargas, Rafael Miguez
Balseiro, and Erica Rivera Castro; one non-attorney representative, Samuel Torres Crespo, a
former Social Security employee; and 71 other social security claimants for fraud in the
application process of Social Security Administration (SSA) disability insurance benefits in
Puerto Rico, announced United States Attorney for the District of Puerto Rico, Rosa Emilia
Rodríguez Vélez.

       For the past two years the FBI and SSA-OIG have jointly investigated fraud in claims for
SSA disability insurance benefits. Analysis conducted by SSA of the volume of pending,
processed, and approved claims suggested that Puerto Rico is one of the top districts in the
country for the commission of this type of fraud. The investigation focused on historical
claimants, whose claims were medically supported by suspect physicians.

      The SSA is responsible for the implementation of the Disability Insurance Benefits
Program. The SSA provides cash benefits to workers with severe, long-term disabilities, who
have worked in SSA covered employment for the required length of time. Spouses and
dependent children of disabled workers may also be eligible to receive benefits.

        Pursuant to SSA regulations, a claimant must prove to SSA that he or she is disabled by
furnishing medical and other evidence with the application. The application and supporting
evidence would then be evaluated by SSA to determine the claimant’s medical impairments and
determine the effect of the impairment on the claimant’s ability to work on a sustained basis.

        Samuel Torres Crespo would complete an SSA disability insurance application for a
claimant in a manner calculated to justify a non-existent medical disability, in order to
improperly deceive and persuade the SSA to award the claimant retroactive and future disability
benefit payments. Torres Crespo charged and collected a fee equal to 25% of the retroactive
lump sum payment made by the SSA, but not to exceed $6,000.00 dollars. The government has
civilly forfeited approximately $1.7 million dollars and other valuables from Torres Crespo.

        The doctors, Wildo Vargas, Rafael Miguez Balseiro, and Erica Rivera Castro, would
evaluate, treat, and diagnose the claimants in a manner calculated to justify a non-existent
disability in order to improperly deceive and persuade the SSA to award the claimants with
retroactive and future disability benefit payments. The doctors would receive between $150.00 to
$500.00 dollars for the submission of their medical reports to SSA.

        The defendants who illegally received the benefits are Myrna M. Santos Rivera,
Nevelline Tirado Gomez, Mayra L. Pantoja Carrelo, Obette Santiago Maldonado, Julio A.
Crespo Crespo, Arnaldo Pino Hernandez, Jose Perez, Carmen L. Gonzalez, Olvin Rosado
Ballester, Arlivone Rodriguez Rivera, Carlos Colon Gonzalez, Liz D. Vega Mena, Joanna
Rodriguez, Lynette Figueroa Vazquez, Gerardo Torres Lopez, Aixa Prado Serrano, Joel Pabón
Hernandez, Glorivette Montalvo Guzman, Ruth Adan, Lizbeth M. Martinez Velez, Juan J.
Malpica Nieves, Victor R. Santiago, Carmen Noriega, Carmen R. Cortes Nieves, David
Rodriguez Colon, Alex E. Morales Quijano, Cynthia E. Rivera Mejías, Ismael Rivera Figueroa,
Enrique Torruella, Jismel A. Lozada Pabon, Jaime M. Santiago Piñeiro, Nancy Melendez
Crespo, Madelyn Molina Valentin, Benny Bonet Rivera, Jose L. Orta Rivera, Jorge L. Morales
Melendez, Hector L. Rodriguez Marrero, Luz D. Figueroa Diaz, Eduardo Serrano Quintero,
Lissette Vidot Santiago, Victor O. Rodriguez Arroyo, Francisco L. Cintron Otero, Aurora
Millet Millet, Neftalí Vazquez Erazo, Misael Ramirez, Jose L. Lozada Maldonado, Angel F.
Declet, Maribel Matos Soto, Adelmis Rosario Hernandez, Nydia E. Rivera Rodriguez, Brenda I
Rivera Rivera, Elsie Padilla Caban, Manuel Tirado Maldonado, Miguel Rivera Ayala, Luis R.
Santiago Rodriguez, Juan C. Colon Casanova, Juan Arocho De Jesus, Adahid Galán Figueroa,
Norma Calderon Ortiz, Leinette Bravo Maldonado, Alberto L. Pagan Rosario, Ruben Ortiz
Rodriguez, Julio C. Baquero Torres, Doreli Pagan Castro, Sonia Candelario Castro, Carmen M
Torres Hernandez, Luis Pastrana Pastrana, Maribel Varela Fuentes, Javier F. Declet Carrasquillo,
Sandra I. Rios Serrano, and Hector L. Rodriguez Rodriguez. All the defendants are facing
forfeiture allegations totaling more than 2.1 million dollars collectively.

       “The claimants who defrauded the SSA by feigning medical disabilities, and the
physicians who provided false medical justifications for these claimed disabilities, are
perpetrating a theft of public funds.” said United States Attorney Rosa Emilia Rodríguez-Vélez.
“Our office is committed to prosecuting those who abuse Federal programs and steal public
monies, to the detriment of legitimate beneficiaries who have a legal right to the assistance
monies.” stated Rodríguez-Vélez.

        Special Agent-in-Charge Edward J. Ryan of the Office of the Inspector General, Office
of Investigations of the Social Security Administration stated “This fraud conspiracy scheme
involving unscrupulous medical professionals, a non-attorney representative, and SSA disability
claimants has been exposed and those involved are being brought to justice. It was only after an
extensive analysis of medical source documentation in voluminous SSA files that SSA and OIG
identified the fraudulent pattern investigated by SSA OIG, the FBI San Juan Office, and the
Puerto Rico Police Department. This intensive and complex investigative work consisted of
numerous interviews, hundreds of surveillances, and other investigative activities that I cannot
detail. The evidence was provided to the U.S. Attorney’s Office which culminated in the arrests
this morning. However, our cooperative investigative work in this conspiracy continues. OIG
will continue to work with our partners to protect the integrity of the Social Security Trust
Fund.”

       The case was investigated by the Social Security-OIG with the collaboration of the FBI.
The case was indicted by First Assistant U.S. Attorney Maria Dominguez.

                                             ###
